Department of Health and Human Servces
       OFFICE OF
  INSPECTOR GENERAL




      INTERSTATE FLOW OF
        MEDICARE FUNDS




       .. SERV1('



       ." .2        Richard P. Kusserow
                    INSPECfOR GENERAL
       1t.,,,:W
                        OEI- 12- 89- 89220
               EXECUTIV                          SU"    MMAR
Introduction

This inspection details on a state- by-state basis , how the Medicare program (1) obtains
  revenu e " contributions " through various forms of taxation and insurance premiums
and (2) makes " disbursements " to purchase health care servces. This inspection
collects publicly available 1985 data on each state s contributions to the Medicare trust
funds and concurrent disbursement for servces to Medicare beneficiaries , calculates
the net flow of Medicare funds into or out of each state , and tests possible reasons for
this flow.

Results

On average , Part A and B withdrew 1.89 percent of gross state product in Medicare
taxes and premiums , while returning 1.76 percent in provider and practitioner
reimbursement. However, this ratio varied from state to state. For example , Florida
and Pennsylvania each enjoyed an annual " net    grain " of over $1 bilion.   Conversely,
New York and Texas each suffered a " net loss " of over $1 bilion. Overall , 16 states
(or other jurisdictions) received $4. 2 bilion more in Medicare disbursements than they
paid in revenues. Thirty-six states contributed $9.4 bilion more into Medicare
revenues that they received in disbursements. The difference accumulated in the
Medicare trust funds.

When initiating this inspection , the Office of Inspector General hypothesized that
Medicare s fied deductibles and co- payments would transfer money from states with
low average incomes and health care costs to those with high average incomes and
health care costs. Contrary to this expectation , multivariate analysis establishes that a
state s contributions to Medicare correlate with its economic strength. Disbursements
relate to the state s proportion of elderly residents , availability of health care
resources , and general health status.
                                                                     . . . . . . . . . . . . . . . ..........................
                                                             ................................................                              ........
                           . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... .......         ..
                                                                                                                                                  . ..    ...
                                                                                                                                                      ..... ....................
                                                                                                   . .. .. ....... ..............................................:....
                                                                                                                                                                .........     .............
                                                                                                                                                                        ...................
                                                                                                                                                                                          ..................
                                                                                                                                                                                          .                .. ....
                                                                                                                                                                                                                . ..
                                                                                                                                                                                                               .. ..
                                                                                                                                                                                                                   ..




                                                                        TABLE                               OF   CON1"'                    ENTS
EXECUTIVE SUMMARY

TABLE OF                  CONTENTS...........................................
INRODUCTION. . .
       Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
       Medicare. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
       Part A contributions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
       Part B contributions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
       Medicare administration. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

       Medicare finances
       Methodology
       Data sources


FINDINGS
     Interstate flow of Medicare funds. . . . . . . . . . . . .
     Univariate analysis of possible causes
            Beneficiaries
                            Population. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                            Employment

                            Gross State Product. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

       Multivariate analysis of possible causes.                                                                 . . . . . . . . . . . . . . . . . . . . . . . . ..
                            Part A contributions: Payroll tax
                            Part A contributions: General revenue. . . .
                            Part A disbursements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                            Part B contributions: Beneficiary premiums
                            Part B contributions: General revenue
                            Part B disbursements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
       Conclusion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

REFERENCES

Appendix 1: Old age , survivors , disabilty health insurance contributions by
     state , 1985 .. . . . . . . . .

Appendix 2: General revenue contributions by state , 1985 . . . . . . . . . .

Appendix 3: Part B premium contributions by state ,                                                                               1985 .............

Appendix 4: Total Part A contributions and disbursements by state , 1985

Appendix 5: Total Part B contributions and disbursements by state , 1985
                                                                                                                                                                         . . . . . . . .. .. .. .. .. . .
                                                                                            . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . . . . .




Appendix 6: Net Part A and Part B contributions and disbursements by state
        1985 ....................................................

Appendix 7: Ratio of Part A and Part B contributions to disbursements by
        state , 1985 .. . . . .

Appendix 8: Part A and Part B contributions and disbursements per beneficiary
        by state   , 1985 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




Appendix 9: Part A and Part B contributions and disbursements per population
        by state   , 1985 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




Appendix 10: Part A and Part B contributions and disbursements per employee
     by state      , 1985 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




Appendix 11: Part A and Part B contributions and disbursements per gross
     state product ($ milion) by state , 1985 . . . . . . . . . . . . . . . . . . . . . . . . . . . -

Appendix 12: Population , employees , and gross state product per beneficiary by
     state , 1985 .. . . . . . . .

Appendix 13: Payroll tax and Part A general revenue contribution per
     beneficiary, population , employees , and gross state product by state
        1985 ....................................................


Appendix 14: Premiums and Part B general revenue contribution per
     beneficiary, population , employees , and gross state product by state
        1985 ....................................................




                                                                                                                           VII
                             INTRODUCI' ION

Purose
This inspection originated with the July 1 ,   1988 enactment of the Medicare
Catastrophic Coverage Act of 1988 , P. L. 100- 360. Among other provisions , this
legislation restricted the inpatient deductible to the first hospitalization of the year
removed day limits on hospitalization , eliminated co-insurance on inpatient servces
and limited Part B out-of- pocket expenses. It financed these servces with an income
related premium on Medicare beneficiaries.

The Office of Inspector General hypothesized that certain states have higher than
average (1) resident incomes and (2) health care costs (e. , due to higher local costs
broader array of health services available , and higher intensity of servce). Other
states , without major medical centers , have lower than average incomes and health
care costs. If a health insurance program (like Medicare) has fixed dollar deductibles
co- payments , and limits; residents of higher cost states would reach them more often
and more quickly than residents of lower cost states. High cost states would therefore
receive a greater proportion of the insurance program s benefits.

At the same time , financing such a program with equal sized premiums from all
beneficiaries exacts a disproportionate share of revenues from those beneficiaries with
lower average incomes. A flat tax on payroll also regressively burdens residents of
states with lower average incomes. Only the portion financed from general revenue
(mainly the income tax) progressively spares these states. Medicare could therefore
have the net effect of transferring funds from lower income states (which pay a larger
share of the taxes and premiums) to higher income states (which generate large health
care expenses). The Office of Inspector . General (OIG) originally initiated this
inspection to test this hypothesis and to determine how the catastrophic coverage
legislation s addition of a income based premium on the elderly would affect this flow
of Medicare funds between states. Although P. L. 101- 234 , the Medicare Catastrophic
Coverage Repeal Act of 1989 , voided P. L. 100- 360' s coverage on December 13 , 1989
the OIG elected to complete its evaluation of the first question.

This inspection makes no value judgment as to the desirabilty or undesirability of
transferring funds between states. Most federal programs necessarily (and
appropriately) draw revenue from the nation as a whole and principally disburse it in
a limited number of localities. For programs like flood control or disaster relief, the
flow of funds intentionally spreads a specific event s costs over the economic capacity
of the rest of the country. For programs like defense and agriculture, all states pay
taxes but procurement historically concentrates in certain regions. In social welfare
programs such as Social Security and Medicare , all states both draw revenue and
receive benefits ,   but in largely unrelated amounts.
Medicare

On July 1 , 1966 , Medicare commenced its health insurance of the elderly. On July 1
1973 , it expanded coverage to the long- term disabled. Congress intended this program
as alternative coverage for people who usually lacked access to health insurance , which
is usually available through an employer.      T-b-srois programs is nationwide:
eligibilty for basic benefits is the same , regardless of the state in which the beneficiary
resides.

Medicare is the common name for title XVIII of the Social Security Act , Health
Insurance for the Aged and Disabled. It primarily consists of two major programs.

Part A€        Hospital Insurance pays for inpatient hospital care and other related
               care.

Part B        Supplementary Medical Insurance pays for physicians ' servces
              outpatient hospital services ,   durable medical equipment , home health
              care , and other medical expenss.

Medicare collects its revenue at the national level , aggregating its " contributions " from
all states. It then " disburses " this money throughout the country from centrally
administered trust funds. Accordingly, its only actuarial concern is that total program
income matches total program outlays. Medicare s financial structure does not
distinguish between the specific sources of funds or their ultimate geographic
destination.

Par   A contributions                           Table 1: Operations of the hospital insurance
                                                                fund , FY 1985
Payroll taxes financed 91.3 percent of
                                               Source                                   $ millon
the Part A program in 1985. The taxes
levied on 115 milion current workers           Payroll tax
                               46490
paid for servces to 31.1 milion                Railroad retirement transfers
               371
beneficiaries. The Part A program also         Uninsured persons reimbursement
             766
maintained a trust fund of about one-          Voluntary enrollee premiums

                                               Miltary wage credits

half year s disbursements to provide a         Investment interest                         3182
small reserve against fluctuations in
program experience. In 1985 , about            Total revenue                             50933
28. 2 milion people age 65 and over            Total disbursements                       48654
and about 2. 9 milion disabled people          Net change in HI fund                      2279
under age 65 were eligible for benefits
                                               Source: Board of trustees of the federal hospital
under Part A.
                                               insurance trust fund. The 1988 annual report of
                                               the board of trustees of the federal hospital
In addition , a small proportion of Part       insurance trust fund. Washington , DC: U.
A financing comes from the Railroad            Government Printing Office , 1988: 35.
Retirement Account for railroad
workers , general revenue for deemed military service wage credits and certain
uninsured persons ,   and premiums paid by voluntary enrollees. Interest from the trust
fund provides the balance of Part A revenue. Because states basically contribute to
these sources in proportion to unrestricted federal revenue , the balance of this
inspection treats them as general revenue.

On a long-range actuarial basis , adequate financing of the Part A program depends
upon comparison of the actual tax rates specified by law with the corresponding
program costs. The Part A trustees (the Secretaries of the Treasury, Labor , and
Health & Human Servces; and two public members) estimate the percentage of
taxable payroll needed depending upon forecasts of the status of the economy, labor
force participation , and other factors that take into account different assumptions
about their performance , ranging from optimistic to pessimistic.

Congress has adjusted the tax rate several times since the program s inception in order
to keep pace with increased outlays. The rate in 1984 was 1.3 percent each , for
employers and employees; and 2. 6 percent for self-employed individuals. The
comparable rates in 1985 were 1.35 percent and 2. 7 percent. In 1986 , they became
1.45 percent and 2. 9   percent.


In addition , the m  mum amount of wages subject to taxation has been increased at
various times in order to broaden the tax base. In the 1980s ,   this increase was
scheduled to occur automatically on a yearly basis. In 1984 , taxes were paid on up to
$37 800 of earnings; in 1985 , it was $39 600; and in 1986 , $42 000.

Currently, over four covered workers support each Part A beneficiary, but this ratio
will decline rapidly early in the next century. By the middle of that century, only about
two covered workers will support each enrollee. The anticipated reserves and
financing of the Part A program cannot offset this demographic change , except by
using the most optimistic assumptions. The trustees project that the trust fund'
exhaustion even before the .major demographic shift. Efforts to improve the efficiency
and reduce the costs of the health care delivery system may moderate this projection.
The Prospective Payment System for hospitals comprises one such cost containment
efforts.

Part B contnoutions

The Part B program is financed on the actuarial principle that its trust fund should
always be somewhat greater than the claims that have been incurred by beneficiaries
but not yet paid. Part B financing   comes from three principal sources: Premiums paid
by or on behalf of Part B enrollees , general revenue , and interest from investment of
the trust fund.

Until 1973 ,
           the premium covered half the benefit and administration costs of the Part
B plus a contingency reserve. General revenue financed the other half of Part B costs.
Beginning in July 1973 , Congress limited premium increases to the percentage increase
in monthly social security cash benefits and changed the premium adjustment period.
As a result , premiums steadily               Table 2: Operations of supplemental medical
contributed less to Part B , with 72.                insurance trust fund , CY 1985
percent coming from general revenue in      Source                                  $ millon
1985.
                                            Enrollee premiums                          5613
The Social Security Trust Funds hold all    General revenue                           18250
of the income not currently needed to       Investment interest                        1243
pay benefits and related expenses. The
                                            Total revenue                             25106
assets of the funds may not be used for     Disbursements                             23880
any other purposes. They are invested       Change                                     1226
in interest-bearing obligations of the
   S. government.                           Source: Board of trustees of the federal
                                            supplementary medical insurance trust fund. The
Medicare admistration
                      1988 annual report of the board of trustees of the
                                            federal supplementary medical insurance trust
                                            fund. Washington , DC: U. S. Government Printing
The federal government principally          Office, 1988: 26.
administers the Medicare program
through three agencies: the Social Security Administration (SSA) and the Health Care
Financing Administration (HCF A) in the Department of Health and Human Services
(HHS), and the Internal Revenue Service (IRS) in the Department of the Treasury.
Within HHS , administrative costs for the Part A program are less than 2 percent of
total disbursements. For Part B , they are about 3 percent.

The SSA is responsible for enrollng people into the Medicare program. This usually
occurs at the same time they apply for retirement benefits , or two years after receipt
of disability benefits. Nationwide , SSA is the primary public contact point for
information on the program , biling problems , and provider participation.

The HCF A determines the nature and extent of reimbursement for all covered
servces. Through contractors , it processes all provider claims for reimbursement.
has established mechanisms to monitor the quality of care provided.

The IRS collects the Medicare taxes from employers and personal income tax filings
and deposits this money in the Trust Funds. The Secretary of the Treasury is the
managing trustee of the Part A and Part B trust funds , and is responsible for actually
executing all Medicare disbursements to states in the form of payments to carriers (for
Part A claims) and fiscal intermediaries (for Part B claims).


Medicare fiances


Both Part A and Part B are intended to be actuarially sound. To accomplish this
objective, the accrual of funds in each trust fund should " in the long run " balance its
disbursements of funds. This calculation of the necessary levels of accruals and
disbursements derives from actuarial calculations of national economic, demographic
and health care trends.
For Part A, fiscal soundness is based upon the ratio of the amount of payroll tax
dollars coming in as contributions from covered workers to the amount of Medicare
dollars being paid out to beneficiaries through fiscal intermediaries and carriers. This
ratio changes constantly based on changes in the national and statewide economy,
population age , health status , and health care utilzation factors.

Part B depends less upon the ratio of contributors to beneficiaries. Subscribers ' fees
comprise about 25 percent of Part B funding during the study period. The remaining
75 percent from of general revenue remains subject to the fluctuations discussed
above.

Methodology

The first phase of this inspection collects publicly available data sources. These
sources include federal government statistics and private data for the year 1985. This
phase includes a state- by-state calculation of contributions and disbursements to and
from the Part A and Part B trust funds. This information demonstrates the basic flow
patterns between states due to Medicare , identifying jurisdictions with net losses and
net gains.


The second phase of this inspection adjusts these " crude " amounts by controllng for
state size. A particular state s large flow of Medicare funds may derive from its being
a large state , rather than from unique features of the Medicare program. Accordingly,
this phase divides Part A and Part B contributions , disbursements , and nets by
beneficiaries , population , employment , and gross state product to obtain ratios for
comparison. In addition to reducing the impact of large states , this two dimensional
analysis use the coefficient of variation to identify individual causes that influence the
flow of Medicare funds. This methodology emphasizes the effect of outlier states that
most deviate from mean relationships even upon controllng for state size.

The third phase of this inspection performs multivariate analyses to control for the
interaction between the single causes identified in phase two as influencing the flow of
Medicare funds. For example , if state wealth and state health facilities each
individually affect flow , what effect to they exert together? Wealthier states have
greater health care resources and facilties , causing intercorrelation of any variables
selected for their measurement. This pqase s analyses test individual causes for
significance , eliminates outlying cases , performs a stepwise regression , eliminates post-
regression outliers , and compares the model's predicted values with actual values to
analyze the residuals.

Data sources



The SSA publishes annual statistics about payroll tax collections , both employee and
self-employed. In 1985 , the Part A program received 2. 7 percent of the 14. 1 percent
tax for " old age , survivors , and disability health insurance " (OASDHI) contributions.
tax revenue. (Appendix    1.)
The Part A and Part B trustees report essentially the same dollar amount of       payroll€



Different statistical series vary in their definitions of " outlying " areas. Appropriate
comparison therefore requires careful attention to data sources. For OASDHI
outlying areas include revenue from Puerto Rico , Virgin Islands , Guam, American
Samoa , sailors , and expatriates. It does not include miltary personnel , who fall into
the " other" category. The armed forces apparently transfer their $4. 7 bilion in payroll
taxes to Medicare without attributing it to particular states. Indeed , assigning military
personnel to states presents a variety of problems for any statistical series.
Additionally, military personnel receive essentially no Medicare benefits prior to
leaving the servce.

The Part A and Part B trustees annually report the amount of general revenue each
trust fund receives , but do not break the totals down by state. The Tax Foundation
estimates each state s overall federal tax burden which consists principally of general
revenue. Accordingly, this inspection divides total Part A and Part B general revenue
by the state s proportion of the overall federal tax burden to estimate its contribution.


The Tax Foundation does not estimate the federal tax burden on outlying areas or
 other. " The Internal Revenue Service reports 1.48 percent of federal revenues derive
from outlying areas , international operations , and unallocated receipts.
Unfortunately, it does not separate these components. Accordingly, this analysis takes
this proportion as a reasonable approximation of their federal tax burden. (Appendix


Every two years , the HCF A tabulates the number of Part B beneficiaries in each state.
For 1985 , this inspection multiplies this number by $186 , the premium that year. This
total dollar amount closely approximates the actual collections reported by the trustees
of the Part B fund. (Appendix 3.

The HCF A' s Part B enumeration    includes outlying areas , but not " other. " The SSA
annually reports the number of Part A enrollees with a separate category for overseas
beneficiaries. This inspection therefore uses the SSA data for " other.€

The HCFA also annually aggregates Part A and Part B disbursements by state.         €
combines billng information from the different Medicare carriers and fiscal€
intermediaries by state of beneficiary residence.   This data contains   some preliminary
and interim bils that remain subject to slight adjustments at final settlement. These€
marginal changes (closely on the order of 0. 001 percent) should not significantly affect
the state by state totals. (Appendices 4 and 5.
                       ";'\




                                     FINDINGS

Interstate flow of Medicae fuds

This inspection divided the United States into 53 jurisdictions: 50 states , District of
Columbia , outlying areas , and " other. " In 1985 they contributed $75. 7 billon to
Medicare revenues and received $70.5 billon in disbursements. The $5. 2 bilion
difference accumulated in the Medicare trust funds or went to inter-fund borrowing.
Theoretically, negative transfers out of the trust funds would eventually offset the
current increases in reserve balances. (Appendix 6.
                              Figure 1: States with Medicare net gains




Sixeen states receive a " net gain " of $4 237 milion more in total Medicare
disbursements than they made in total Medicare contributions. Florida and
Pennsylvania each gain over a billon dollars more from Medicare than they pay in
revenues. Missouri , Mississippi , West Virginia , Alabama , and Arkansas (in descending
order) each net over $100 milion from Medicare. Arizona , California, Rhode Island
Maine , Louisiana , Kentucky, North Dakota , South Dakota , and Iowa gain over $10
millon.

Thirt-seven jurisdictions suffer a " net
                                     loss " of $9,438 millon to Medicare. New York
and Texas each contribute over a billon dollars more into revenues than they receive
in disbursements. " Other " New Jersey, Virginia , outlying areas , Connecticut , North
Carolina , Colorado , Minnesota , Georgia , Maryland , Alaska , Utah , Washington , Ohio
Indiana , Wisconsin , District of Columbia , Oklahoma , Delaware , and Massachusetts (in
order) each lose in excess of $100 millon. Except for Nevada and Kansas , the
                                                               , "€




                              Figure 2: States with Medicare net losses




remaining states each give over $10 millon net to Medicare. For all 53 jurisdictions
the average total net transfer totals $99. 0 millon (s 459. , V 464. 5).

        Figure   : States with Part A net gains      As noted in the preceding section
                                                      other" and outlying areas include some
                                                     statistical anomalies. For revenue
                                                     purposes other" encompasses OASDHI
                                                     contribution from active duty miltary
                                                     personnel and revenues not otherwse
                                                     accounted for. However, these sources
                                                     do not receive any Medicare
                                                     disbursements , skewing the apparent net
                                                     loss. Similarly, outlying   areas receive
                                                credit for tax contributions due to
                                                international transactions and
unallocated receipts. The accompanying graphics show amounts for outlying areas
combined together at Puerto Rico s location , southeast of Florida. Amounts for
 other" also appear offshore , but east of Georgia.

Separate calculation of Part A contributions and disbursements produces a pattern
similar to that of Medicare as a whole. On average , Part A causes a $66. 6 millon net
transfer (s 379.   , V 571.3).

Most   states with net gains from Part A also enjoy similar gains for all of Medicare.
Part A transfers over $1 bilion to Florida.   Pennsylvania , Missouri , Mississippi , West
Virginia , Alabama , Louisiana , Ilinois                 Figure 4: States with Part A net losses
and Kentucky (in order) each gain over
$100 milion from Part A. Ilinois
South Carolina , Tennessee , and Nevada
each have Part A net gains , despite
suffering an overall net loss to
Medicare.

Conversely, Part A withdraws over $1
bilion annually  from New York and
other. " Texas , New Jersey, Virginia                ff. "
California , Connecticut, Minnesota
North Carolina , Colorado , Georgia , Maryland , Alaska, District of Columbia , Utah
Delaware , Massachusetts , and Michigan (in order) each lose over $100 milion. Only
California s $433 milion net gain from Part B more than offsets its $358 millon loss to
Part A for an overall gain from Medicare.

          Figure 5: States with Part B net gains
       The smaller Part B program differs even
                                                        more from the overall Medicare net
                                                        distribution that does Part A. It also
                                                        shows higher variance with an average
                                                        net transfer of $33 millon (s 153. , V
                                                        571.3).

                                                        Florida , California , Pennsylvania , and
                                                        New York each enjoy Part B net gains
                                                       of over $100 milion. However , New
                                                    = York, District of Columbia , Oregon , and
                                                        Michigan stil suffer Part A net losses
larger than their Part B net gains.



Texas , outlying areas , New Jersey,                    Figure 6: States with Part B net losses

Ilinois , Virginia , Indiana , Ohio , North
Carolina , Colorado , Oklahoma
Connecticut , and Louisiana (in order)
each suffer a net loss of over $100
milion to Part B. Missouri ,       Mississippi
Alaska , Maine , Louisiana, Kentucky,
North Dakota , South Dakota , Iowa , and
Kansas (in order) net more from Part A
than they relinquish to Part B in net
losses.

The ratio of a state s contributions to disbursements quantifies its net gain or loss
while controllng for the size of both contributions and disbursements. The average
state contributes 111.5 percent of its disbursements (s 0. 282 , V 31.5). Florida , West
   Figure 7: Ratio of Medicare contributions over Virginia , and Pennsylvania have ratios of
                 disbursements less then 0.                      , demonstrating their net
                                                    gains to be systematic and not merely a
                                                    function of their large size.   Conversely,
                                                    Alaska , outlying areas , and " other
                                                    contribute more than three times as
                                                    much into Medicare revenue than they
                                                    receive in disbursements. For Alaska
                                                    this ratio represents a real transfer of
                                                    finds to outside the state. The latter
                                            JJ two jurisdictions reflect data collection
                                                 anomalies. Since " other " receives no
disbursements , it has an infinite ratio (truncated to six in the figure). (Appendix 7.

Uniarate analysis of possible causes                Table 3: Coefficient of variation (V per
                                               beneficiary, population, employee, and gross
Superfcial inspection of the interstate                        state product
flow of Medicare funds suggests the          Per:               Benefi- Popul- Empl-        Gross
need to control for state size. For                               ciary ation oyee state
example , New York , New Jersey, and                                                       product

Pennsylvania should possess similar          Par A

inventories of health care servces , but     Contribution           74.     33.4     30.

                                             27.
have quite different flows of Medicare       Disbursements          24.     31.      31.0
funds. In addition , contributions do not    34.
necessarily relate to disbursements. For     Net                   364. 1 356. 3 367.
contributions deriving from payrolls         470.
employment related variables might best
quantify state size. For contributions       Par B
                                             Contributions          55.     18.      21.
dependent on general revenue                 34.
population or gross state product may        Disbursements          28.     35.      34.
best measure size. For disbursements         36.
size may mean the number of                  Net                   234.    146.     162.
beneficiaries.                               188.

Controllng for beneficiaries , population Total   Medicae
                                            Contributions     66.    26.     24.
employment, and gross state product         24.4

tests possible causes for the state by      Disbursements     24.    31.     30.

state distribution of net gains and losses. 33.

It has the secondary advantage of           Net              310.   239.4 248.€
limiting the interstate variance.           299.

HDwever, units of measurement affect

the variance , obscuring comparison of possible causes that have different scales.


The coeffcient of variation (V) better quantifies the relative variation by eliminating
the units of measurement. It identifies the following relationships having low variation
and therefore being likely causes of the interstate flow of Medicare funds.
BENEFICIAIES€                       Part B contributions and total disbursements.€

POPULATION€                         Part B contributions.

EMPLOYMENT€                         Part A, Part B , and total contributions.

GROSS STATE PRODUCT                 Part A and total contributions.

These relationships conform to intuitive expectations that disbursements follow
beneficiaries , while contributions derive from a state s ability to pay. Dividing by these
measures of size also highlights the outlier states that most diverge from measures
central tendency.

Benciri€
   Figure 8: Part B contributions per beneficiary The number of beneficiaries in a state€
                                                  directly affects both its premium
                                                contributions to Part B (Pearson r 0.
                                                P -c 0. 0001) and the total disbursements
                                                to the state (Pearson r 0. , P -c
                                                  0001). Dividing Part B contributions
                                                by beneficiaries controls for states whose
                                                populations consist disproportionately of
                                                the elderly (e. , Florida , Arzona).
                                              A However, the decreasing fraction of Part
                                             tiB financed by    beneficiary premiums€
                                               weakens any causal linkage. Alaska
Wyoming, outlying areas , Colorado , and the District of Columbia make the largest
Part B per beneficiary contributions. In the first four jurisdictions the elderly
constitute unusually small proportions of their total populations. The District of
Columbia has a higher per capita income than any state and therefore makes an
unusually large contribution to general revenue. " Other " Arkansas , West Virginia
Mississippi , and South Dakota have the lowest Part B contributions per beneficiary.
 Other" has essentially no beneficiaries , while the rural states suffer from low average
incomes. (Appendix 8).

Similarly, dividing total Medicare disbursements by beneficiaries identifies the District
of Columbia , California , Michigan , Ilinois , and Nevada as having high costs per
beneficiary. The two former locales have disproportionately comprehensive health
care facilties. However , no causal characteristics particularly distinguish the latter
three states. " Other " outlying areas , Utah , Montana , and North Carolina have the
lowest costs per beneficiary. " Other " has no beneficiaries and therefore no
disbursements. Utah enjoys a reputation for healthy lifestyles and low morbidity. The
remaining areas could have either lower cost or lower intensity health servces.

Population€
                                                    , "





Figure 10: Part B contributions per population Figure 9: Medicare disbursements per beneficiary€




Population directly measures a state s size. Its correlates (Pearson r 0.   , P -c 0. 0001)
significantly with Part B contributions. This relationship also has the lowest coefficient
of variation. Dividing Part B contributions by population , Connecticut , New Jersey,
District of Columbia , Alaska , and Massachusetts have the highest quotient. These
jurisdictions also enjoy relatively high average incomes. " Other " Utah , Mississippi
Idaho , and South Carolina come in lowest. " Other " scores low because it has no
beneficiaries and therefore no beneficiary premiums. Mississippi , Idaho , and South
Carolina have relatively low average incomes. Utah has a low proportion of elderly
residents; however , so does Alaska. (Appendix 9).

Employent                                      Figure 11: Medicare contributions per employee

The number of employees in a state
indirectly quantifies its economic
activity. In particular , employment
significantly correlates with contributions
(Pearson r 0. , P -c 0.           0001). Dividing
total Medicare contributions by

employment identifies the District of

Columbia , Delaware , Alaska         , outlying
areas , and New York as making higher

                                                       0 -€



than average contributions , especially€
OASDHI and general revenue. These jurisdictions have higher average earnings and
presumably higher rates of taxation. Mississippi other " South Dakota , Maine , and
Kentucky make the lowest Medicare contributions per employee. The four states have
lower average incomes , but " other " includes considerable non-wage income attributed
for accounting purposes. This revenue should artificially inflate the average income of
the miltary personnel in this group, suggesting unusually low average incomes among
the miltary. (Appendix 10).
Gross State Product


                      product
 Figure 12: Medicare contributions per gross state   Gross state product parallels the
                                                     economic definition of the gross national
                                                     product, but for a single state. It
                                                     directly measures the size of a state
                                                     economy and significantly correlates
                                                     with total Medicare contributions
                                                     (Pearson r 0. , P -( 0. 0001). Unlike
                                                     number of employees , it accounts for
                                                     differences in their average earnings and
                                                     includes unearned income. Calculating
                                               total contributions as a percentage of
                                               gross state product , outlying areas
devote 4. 2 percent of their total economic activity to paying for Medicare. " Other
(3. 0 percent), Delaware (2. 7 percent), Rhode Island (2. 2 percent), and New York (2.
percent) follow with successively lower fractions. These areas have high average
incomes , suggesting that Medicare uses relatively progressive methods to raise its
revenues. Wyoming (1.1 percent), Alaska (1.1 percent), Louisiana (1.4 percent), New
Mexico (1.4 percent), and the District of Columbia (1.5 percent) contribute the
smallest proportions of their economies to Medicare. However, Alaska and the
District of Columbia have the highest per capita personal incomes in the nation.
Their residents must therefore have atyically        light Medicare tax burdens. (Appendix
11).

Multiarate analysis of possible causes        Table 4: Variables measuring possible causes of
                                                        FICA contributions to Part A
Controllng one measure of state size at       State ecnomic healh
a time emphasizes the effect of the           Failed businesses per capita
other possible causes of Medicare funds       Employed persons per capita
flows. For example , controllng for           Persons receiving public aid
population highlights the importance of       Unemployment rate
states with above average incomes.
Measuring the interaction between             Lar force€
                                              Per capita persons in the civilan labor force

possible causes therefore requires a          Proportion of population 18- 64 years old

multivariate analysis of contributions
and disbursements. Also ,   the previous      Income€
phase emphasizes outliers , whereas a         Disposable income per capita€
multivariate analysis eliminates outliers.    Annual pay per capita
                                              Personal income per capita
                                              Hourly earnings per capita

Part A contrbutions: Payroll

Part A contributions derive principally from OASDHI. Three possible causes appear
most likely to affect the size of a state s FICA tax:
               + +++
                 + ++ +++"'+ + ++ ++               ++ +++ +++
                                                          +




   Figure 13: FICA predicted by disposable               FIC n = f(state economic health , labor
                        income€                          force 3 income).
      230€

      220€

      210€
                                                         If a state has a vigorous economy with low€
      200€                                               unemployment and relatively high wages€
      .90€                                               then more dollars from its wage earners€
      180€
                                  +1+€                   should go into the Part A trust fund. If €
      .70€
                                                         state has a high proportion of its residents in€
      150€                                               the labor force , it should contribute more
      140€
                it +

                                                         money to Medicare. Finally, states with high
      13D€
                                                         average incomes should yield more payroll
      120€

      110€
                                                         taxes, at least until large numbers of
      100 +
                                             residents reach the cap on FICA taxes.

                  Per cap1ta 1Jecae Ct thousand)         Ten publicly available variables measure€
                                          these three causes. Correlation coefficients
and scattergrams identify per capita disposable income , per capita civilian labor force
members , and unemployment rate as attaining significance levels of p c: 0. 05.

                                 Figure 14: Accuracy of Part A FICA predictions
                   1.40€

                   1.30€

                   1.20€

                   1.1.0€


                   1.00€




                                                                           110          130€
                                                           Predicted€

Scattergrams also eliminate Alaska and the District of Columbia as outliers. Upon€
rescaling without these two outliers , Florida also becomes an outlier. Alaska
presumably outlies because it consists disproportionately of young people, while
Florida outlies because it consists disproportionately of the elderly. The District of
Columbia has higher per capita income than any state except Alaska and Connecticut.
After removing these thre;e jurisdictions and rescaling again, New York, New Jersey,
Connecticut , and Delaware- become outliers. This status apparently derives from the
commuting patterns of their respective work forces. Employer location , not employee
residence , determines what state receives credit for their FICA taxes. All these states
have a high proportion of residents who commute either into or out of the state to
work.

A stepwise regression identifies the strongest explanatory variables. Upon such
analysis of the three significant variables against FICA payroll contributions (p .c
 01), only per capita disposable income significantly explains the variance in
OASDHI. A straight regression analysis at the 0. 15 significance level finds that per
capita disposable income accounts for 71 percent of the variance among states for
FICA payroll taxes , a very strong correlation.

The final phase of this part of the analysis compares the predicted values for FICA
contributions to the actual FICA contributions. In a perfect predictive model , we
would expect all the values to fall on the 45 degree line. Random errors account for
each state s divergence from the predicted value. The very strong relationship
between the predicted values and the actual values shows the model to be both
precise and valid.€

Part A contrbutions: General revenue          Table 5: Variables measuring possible causes of€
                                                  general revenue contributions to Part A€
A smaller proportion of Part A                Average annual pay
contributions come from general               Personal income per capita
revenue. A state s ability to contribute      Hourly earnings per capita€
to general revenue depends largely            Civilan labor force€
upon its economic vigor. Six variables        Total employment€
available from public data sources            Failed businesses per capita€
                                              Persons receiving public aid per capita€
quantify this possible cause.
                                              Source: Horner ER , ed. Almanac of the fift
As with the FICA analysis , correlation       states , 1988. 3rd ed. Palo Alto , CA: Information
with scattergrams identifies significant      Publications , 1988.
variables. Repeated correlation with
scattergrams and rescaling, eliminates outlier states.

Stepwise regression selects per capita personal income and annual pay as being
statistically significant allowing for their mutual predictive interaction. Together they
explain 93. 3
            percent of the variance in general revenue contributions to Part A, a very
good fit. Both these variables related to a state s capabilty to pay into federal general
revenue. This finding suggests that general revenue contributions to Part A comprise
a relatively progressive manner of funding.
                                        ++ +   + ++ ++-++++++


                    Figure 15: Accuracy of Part A general revenue predictions€




                                                 + -I€



                                   .t +€



                                               Predicted

Part A disburements                                            Table 6: Variables measuring
                                                            possible causes of disbursements€
After controllng for state size , Part A                               from Part A€
disbursements should principally depend upon the           Population   hea

population s physical health , the health care             General health index€
resources available in the state , and the age             Average life span€
distribution of the Medicare population.                   Severity of disease index€
                                                           General lifestyle index€
                                                           Average work time lost to ilness€
 out = f (population s physical health4, health
care resources   , Medicare age distribution               Heah cae resurce€
                                                           Physicians per capita€
This model considers 12 variables that measure             Hospital beds per capita€
these three possible causes. For physical health€          Occupation rate of hospital beds€
the Northwestern National Life Insurance                   Short term hospital stays per capita€
Company annually publishes computed indices for€
                                                           Medicae age distribution€
each state s general health , lifestyle , and disease      Percent age 65 to 74€
severity from various health measures. Assuming            Percent age 75 to 84€
that a state has a stable population , unhealthy           Percent age 85+
young people will become unhealthy elders.

The relative danger of working in a states major industries , the strength of its laws on
factory emissions , and other occupational hazards also affect the overall health status
of its population. Where significant numbers of workers consistently miss work
because of ilness but stay in the work force , Medicare receives less contributions from
the state. At the same time , the persons who suffer il health throughout their
            -.       :j    ++ ++ + ++
                                    ++ +                                  ... + +   +
                                                                                ++,..
                                                                                   :++
                                                                                    .+++ +
                                                                                         +      - -                          ,..




 Figure 16: Part A disbursements predicted by working              years retain diminished health status
                 genera! health index as elders , thus increasing their utilzation of
      300
                                                          health care services reimbursed through the
                                                          Medicare trust fund.

                            I + ++€                       According to numerous studies , the
      200                                                 availability of high intensity health servces
            *t +€

                               -1                         results in their - increased utilzation. 7 This
                                          +-f +€          trend applies to both necessary servces (e.g.
      100
                                                          a person with a serious ilness might not
                                                          drive fifty miles to have it checked , while a
                                                          person one mile from servce probably will
                                                          seek health care) and to increased requests€
                                                          for elective procedures. This variable does
                    -:1   .-_u..
                                   Genenl healtll I11ez   not change the absolute numerical ratio of
                                                          contributors to beneficiaries ,                   but can affect
the number and tye of services utilzed by Medicare-eligible persons so as to change
the cost of-ervng beneficiaries in a particular area.

Additionally, the need for health services                    Figure 17: Part A disbursements predicted by
may initiate the creation of a medical                                         physicians per capita
center. Once established , the medical                             300

center then generates further demand for
its servces. Over time , health care
resource availabilty can indirectly increase
the consumption of Medicare servces.                               ZIJO
                                                                             +T* t+€

The age structure of the Medicare
population may also affect Part A                                  100
disbursements. Persons 85 years of age and
older tend to be il more often than persons
aged 65- 84. The former group of so-called
old-old" also tend to have ilnesses that
require more health care resources than do                                                 210 260
                                                                                    nYS1C1aD.   per 1.000   r851denu
                                                                                                                       310


the latter group of "young-old. " The use of
Medicare benefits could therefore vary with the age structure of the elderly
population.

Correlation and scattergram of these variables with Part A disbursements , eliminated
variables with weak associations (p -c 0. 05). The general health index, physicians per
capita , hospital beds per capita , and percentage of the Medicare population between
the ages of 65 and 74 years proved to be significant. Regression and rescaling
eliminate outlier states.

In a stepwise regression , all four of these variables remain significant at the 0.
confidence level. An ordinary least squares regres sion using these variables explains
                + ++ ++
                      + +
                        +      +                       *"
                                                      '* + +++ -j+€
                                                       +*+          ++++
                                                                    + ++
                                                                       :\ +
                                                                 + + +++++ +
                                                                           ++




 Figure 18: Part A disbursements predicted by 47 percent of the variance in Part A
              hospital beds per capita benefits.
       300


                                                      Figure 19: Part A disbursements predicted by
                                                         Medicare population aged 65-74 years

       200       :t €
                 :t ++
                                                             300€




                 + 11 +
                                                             200 €
       100€



                                                                         +f +

                                                             100€



                          BOSpU81 bed€




The final phase of the Part A€
disbursements analysis consists of a                                        . beneUCla(les 65-
multivariate , straight regression using€
ordinary least squares. This procedure compares the amounts predicted jointly by the€
four significant variables to the actual payments in each jurisdiction. Together, they.€
account for 47. 2 percent of the variance. An analysis of the residuals shows a strong
relationship between predicted and actual values, and reflects a good model.

                         Figure 20: Accuracy of Part A disbursement predictions
                  300€




                  200€




                  100€




                                         140          190             240                    290€
                                                   Predicted€
                           -+--++        + +          ++-+ ++




Part Bcontrbutins: Beneficiary premiu
As previously noted , beneficiary premiums comprise about one- quarter of
contributions to Part B. This component of Medicare funding does not warrant
multivariate analysis. Beneficiaries each pay a flat rate for their Part B coverage , $186
in 1985. Accordingly, a state s premiums make up a linear function the number of
beneficiaries among its residents. Controllng for population , employee , or gross state
product predicts premiums less accurately because of these measures ' systematic
differences and inherent variance.€


   =GR    + SP

where GR represents the general revenue contribution attributable to each state and
    denotes the total premiums for all subscribers in the state.

Part B contrbutions: General revenue€


The analysis of general revenue contributions to Part B parallels the procedure and
results for general revenue contributions to Part   It uses the same six variables as
prospective measures of states ' economic health. Correlation tests eliminate
nonsignificant variabl s. Repeated    correlation and rescaling removes outlier states.

                   Figure 21: Accuracy of Part B general revenue prediction
       :100




                           +-t -+€




                                                                                     :100
                                              Predicted
Stepwise regression identifies the variables that in the aggregate best explain general
revenue contributions to Part B. Again , only per capita personal income and hourly
                   ++ +++-+
                       +++++++++
                       +.                                                       ..           + +
                                                                                      '" ++ + ++ +++ +     ++




earnings contribute significant predictive information. Together, they account for 93.4
percent of interstate differences in general revenue.

Part   B disburements

  Figure 22: Part B disbursements predicted by The modeling of Part B disbursements starts
              physicians per capita with the same three possible causes as
                                                                        quantified by the 12 variables used for Part
       130                                                              A disbursements. The same rationales as for
       120                                                              Part A disbursements apply to selection of
       110                                                              these variables for Part B disbursements.
       100

                                                                         out = f(population s physical health , health
                                                                        care resources ,     Medicare age distribution)
        70 + + + +
                                                                        Correlating individual variables with Part B
        60 + ++                                                         disbursements to eliminate weak associations
                                                                        the same four variables attained significance
                                                                        at p '" 0. 05. Correlation and              rescaling
             110      160 Z1D 260
                         Pbrs1c18DS per 1. 000 reSlden.ts
                                                            :no   '60
                                                                        removes outlier states.

The four variables remain significant through Figure 23: Part B disbursements predicted by
a stepwise regression where p '" 0. 01.                                                       state health index
However , in an ordinary least squares
regression at p '" 0. 15 only two variables                                          130

physicians per capita and general health                                             120

rating, continue to be significant. These two                                        110 +
variables jointly explain 33 percent of the                                          100
variance in Part B benefits to states.

The final phase of the analysis compares the
disbursements predicted by this model to the
actual amounts paid out. An analysis of the                                                                 + t +
residuals demonstrates a strong relationship
between the model' s predictions and the
actual benefits.                                                                                    Gen.nl beBlt.
                                                                                                                l1 U.deJ:



Conclusion

This data shows that Medicare creates large changes in the flow of funds into and out
of states. The aggregate , net amounts seem to be random on superficial inspection.
However, upon individual analysis the Part A and B contributions and disbursements
do significantly associate with logical causes such as average income , proportion of
elderly residents ,          and availability of health care servces. The juxaposition                                      of unusual
combinations of characteristics in a state accounts for the seeming randomness of the
flow of Medicare funds (e.g. , high average income and few elderly residents).
                                     + +++
                                       +



Accordingly, the net flow of Medicare funds discharges the program s current
legislative objectives. Policy manipulations of this flow should address the underlying
causes , rather than directly affecting the flow itself. Medicare contributions and
disbursements constitute a important share of some states ' total revenues.

                   Figure 24: Accuracy of Part B disbursement prediGt---€
       1.40

       1.


       1.20

       1.1.0

       1.00




                                                                  1.1.0            1.30
                                            Predicted
                                                      , "€




                               REFERENCES

1. U. S. Department of Health & Human Servces , Health Care Financing Administration
Office of Research and Demonstrations. Health care financing -- program statistics:
Medicare and Medicaid Databook, 1988. Baltimore ,            MD: Health Care Financing
Administration , 1989: 15. Table 2. 1. HCFA pub.    no. 03270.

2. Horner ER , ed. Almanac of the fifty states , 1988. 3rd ed. Palo Alto , CA: Information
Publications , 1988.

3. U. S. Bureau of the Census. Statistical abstract of the United States ,   1988. 108th ed.
Washington , DC: U. S. Government Printing Office , 1988.

4. Northwestern National Life Insurance state health rankings: Results , methodology, and
discussion , 1989 edition. Minneapolis , MN: Northwestern National Life Insurance
Company, 1989.
5. U. S. Bureau of the Census. Statistical abstract of the United States: 1988. 108th ed.
Washington , DC: U. S. Government Printing Office , 1988.

6. U. S. Bureau of the Census. State population and household estimates , with age , sex
and component of change: 1981- 1987. Current population reports , series P- , no. 1024.
Washington , DC: U. S. Government Printing Office , 1988.

7. For a more detailed discussion of the relationship between medical resource intensity
and medical servces utilzation , see Hamilton , Robert Crisis in the Health Care System
Connecticut,   May, 1990 , pp. 95- 100.
Appendix 1: Old age , survors , disabilty health insurance contributions by state , 1985 ($ millon)

State      Total OASDHI contributions              Part- A COl1tl'ibutions:
           Wage        Self        Total           Wag              Self      Total

            2750           170        2920           527                        559
             771                       820           148                        157
                                                                                               1. Diez G & Long     W.    OASDHI covered
-AZ         2627          166         2793                                                     workers.   Social Security Bulletin ,   Annual
                                                     503                        535
            1698          136         1834           325
                                                                                               Statistical Supplement,   1988: 136.     Table
                                                                                351
          25434          1908        27342          4870                                        BlO.
                                                                    365        5236
.CO        2943           241         3184           564
                                                                                               2. OASDHI contributions * 2. 7 /14.
                                                                                610
           4145           234         4379           794                        838
                                                                                                   Puerto Rico Virgin Islands Guam
           1132                       1162                                                     American Samoa , ocean-going vessls , and

                                                     217                        223
           1556                       1588           298
                                                                                                 S. citizens employed abroad by American
                                                                                304
           8335           635         8970                                                     employers.
                                                    1596            122        1718
                          311         5175           931                                          Armed forces and funds otherwise
                                                                                991
             838                       890                                                     unaccounted for.
                                                     160                        170
             694                       758           133                        145
           11931          663        12594          2285            127       2412
            4626          281         4907                                     940
            2115          222         2337           405
            2047          199         224            392                        430
            2162          190         2352           414                        450
            3057          202         3259           585                        624
             682                       756           131                        145
            4309          224         4533           825                        868
            6434          401         6835          1232                       1309
           10397          412        10809          1991                      2070
            4593          285         4878           880                       934
            1240          120         1360           237                       260
            45%           295         4891           880                       936
             515                       575                           11 .      110
            1328          139         1467           254                       281
;'N          744                       793           142                       152
             943                      1020           181                       195
           8879           480         9359          1700                      1792
            976                       1047           187                       200
          24635           981        25616          4717            188       4905
           4895           336         5231           937                      1002
            427                        506
           10729          516        11245          2055                      2153
            2471          204         2675           473                       512
            2370          178         2548           454                       488
           11189          666        11855          2143            128       2270
            942                        995           180                        191
           2196           144         2340           421
            400                        470
           3714           25'         3972           711                       761
         13976           1036        15012          2676            198       2875
          1100                        1175           211                       225
           398                         436
          4628            296         4924           886                       943
          3647            285         3932           698                       753
          1130                        1200           216                       230
          4632            252         4884           887                       935
           375                         407
Outlyini 1654                         1741          317                        333
Other     4677                        4677          896                        896
Total   229548          14128       243676        43956           2705        461
Appendix 2: General revenue contributions by state,        1985


State   Federal tax burden           General revenue       $ millon
        $ milion     percent         Part              Part B         Total

           8996               1.25                        238           294€
           2355              0.33                                              1. Tax Foundation. Memorandum on the allocation

                                                                               of the federal ta burden and federal grants- in-aid by
           8271               1.5                         219           270
           5011                                           133
                                                                               state , fiscl year 1988.
                                                                        164
          86183              11.97           532         2280
                                                                               2. Board of trustees of the federal hospital insurance
                                                                       2812
          10178               1.41                        269           332
                                                                               fund. The     1988 annual report of the board of
          13282                                                                trustees of the federal hospital insurance fund.
                              1.84                        351           433
           1994                                                                Washington, DC: U. S. Government Printing Offce
           2506              0.35                                              1988: 36.
          33177                              205          878          1083
                                                                               3. Board of trustees of the federal supplementary
          15395                                           407           502
                                                                               insurance fund.     The 1988 annual    report of the
           2974              0.41                                              board of trustees of the federal supplementary
           2179              0.30                                              insurance fund. Washington, DC: U. S. Government
          38475              5.34            237         1018
                                                                               Printing Offce,   1988: 26.
                                                                       1255
          14915                                           395           487
                                                                               4. Projection from federal individual income tax
           8078               1.2                                              receipts. U. S. Department of Commerce , Bureau of
                                                          214           264
           7480               1.04                        198
                                                                               the Census. Statistical abstract of the United States
                                                                        244
           8502               1.8                                              1989. 109th ed. Washington , DC: U. S. Governmen
                                                          225           277
          11522              1.60                         305
                                                                               Printing Offce 199; Table 504.               Includes
                                                                        376
           2752              0.38                                              international operations and unallocated receipts , in
                                                                               addition to outlying areas.
          15193                                           402           496
          20451                              126          541           667
          26213                              162          694           856
          1247                1.73                        330           407
           4948                                           131           162
          14124              1.96                         374           461

           4433                                           117           144
           3005              0.42
           3142              0.44                                       102
          29802                              184          789           973
           3409              0.47                                       111
          59251                              366         1568          1934
          15225                                           403           497
           1889
          30657                              189          811          1000
           9101              1.26                         241           297
           7047                                           186           229
          34297                              212          908          1120
           2896              0.40
           7391              1.03                         196           242
           1641
          11605              1.61                         307           379
          50557                              312         1338          1650
           3669              0.51                                       120
           128
          17305              2.40            107          458           565
          13232              1.84                         350           432
           4183              0.58                         111           137
          13153              1.83                         348          429
           1537
Outlying 1061                1.48                         282          348
Other
Total    720041          100.               4443        19053         23496
Appendix 3: Part B premium contributions by state , 1985

State          Beneficiariesl Premiums
                  (thousand) ($ millon)

                         519€
                                                           1. U. S. Department of Health & Human Servces , Health Care
                         395€                              Financing Administration , Bureau of Data Management & Statistics.€
                         358€                              Medicare program statistics: Medicare enrollment 1985. Baltimore
                        2858          532€                 MD: Health Care Financing Administration , 1989: 19-20. Table
                         294€                              HCFA pub. no. 0326.
                         426€                              2. Number of beneficiaries * $186.€
                                                           3. From foreign countries.€
                                                           4. Moaney-Howze A Hospital insurance: Number of enrollees , by
                        1965          366€
                                                           state , July 1 , 196-87. Social Security Bulletin , Annual Statistical
                         637          118€
                                                           Supplement , 1988: 285. Table 7. B3.

                         114€
                        1407          262€
                         680          127€
                         428€
                         336€
                         482€
                         453€
                         166€
                         463€
                         797          148€
                        1108€
                         538          100€
                         334€
                         719          134€
                         103€
                         223€

                         121€
                        1006          187€
                         145€
                       2361          439€
                        756           141€

                        1373         255€
                        408€
                        364€
                        1779         331€
                         145€
                        369€
                         101€
                        615          114€
                       1561          290€
                         131€

                        613          114€
                        519€
                        283€
                        652          121€

Outlying                303€
Othe                   230€
Total                 30199         5617€
Appendix 4: Total Part A contributions and disbursments by state , 1% ($ milIon)

State	 Contributed                         Disbursed          Net
       OASDHI        General       Total

            559                      615         775          160
            157                                                                    1. U. S. Department of Health & Human Services
                                     172                      143
            535                      586         630                               Health Care Financing Administration , Bureau of
            351                      382         462                               Data Management and Statistics.         Medicare
           5236          532        5768        5410
                                                                                   estimated benefit payments , calendar year 1985.
                                                              358
            610                      672         451          221
            838                      920         665          255
                                     235          120         115
            304                      320          180         140
           1718         205         1922        3148         1226
            991                     1086         893          193
            170                      189          133
            145                      159          137
           2412         237         269         2772          123
            940                     1032        1026
            448                      497         564          -67
            430                      476         515
            450                      503         624          121
            624                      695         839          144
            145                      162         242          -80
                                     962         811          151
           1309          126        1435        1322          113
           2070          162        2232        2124          108
            934                     1011         774          237
            260                      291         497          206
            936                     1024        1373          349
            110                      123         113
            281                      308         293
            152                      170          175
            195                      215          165
           1792          184        1976        1547          429
                                     222         204
           4905         366         5271        3517         1754
           1002                     1096         860          236
                                     109         142
           2153          189        2343        2317
            512                      568         560
            486                      531         484
           2270         212         2482        3269          787
            191                      208         250          -42
            448                      494         529
                                     100         131
            761                      832         865
           2875         312         3187        2480          707
            225                      248         119          129

            943          107        1050         666          384
            753                      834         742
            230                      256         427          171
            935                     1016         931

Outlying    333                      399         134          265
Other       896                      896                      896
Total      461         4443        51104       47582         3522
."




Appendix 5: Total Part B contributions and disbursements by state , 1985 ($ millon)€

State Contributed                             Disbursed         Net
        Premiums     General         Total

                          238         335           304€
                                                                                       1. U. S. Department of Health & Human Servces
                                                                                       Health Care Financing Administration , Bureau of
                          219         292           326
                          133
                                                                                       Data Management and Statistics.           Medicare
                                       199          227
             532        2280
                                                                                       estimated benefit payments, calendar year 1985.
                                     2812          3245        -433
                         269          324           202         122€
                         351          431           315         116€


             366          878         1243         1821         578€
             118          407         526           445€


             262         1018         1280          1098        182
             127          395          521          372         149
                          214          293          241
                          198          260          222
                          225          315          221
                          305          389                      105
                                       104
                          402          488          410
             148          541          689          685
             206          694         900           996
             100          330         431           346
                          131         193            179
             134          374         507           462

                          117          159          101

                                       106€
             187          789         976           778         198€
                                       117€
             439         1568        2007          2159         152€
             141          403         543           412         131€

             255          811         1067          927         140
                          241          317           198        119
                          186          254          262
             331          908         1238          1573        335
                                       104           122
                          196         264            184

             114          307          421          341€
             290         1338         1628         1110         518€
                                       121€

             114          458          572          401         171
                          350          447          373
                          111          163          180
             121          348          469          406

Outlying                  282          338           110        228
Other
Total       5617        19053       24670         22948        1722
Appendix 6: Net Part A and Part B contributions and disbursements by state , 1985 ($ milion)

State Part A                                Part B                                Total
     Contributed   Disbursed          Net Contributed       Disbursed       Net Contributed       Disbursed    Net

             615         775          160             335        304                        949       1079     130
             172                      143                                                   '27                194
             586         630                          292        326                        878        956
             382         462          -80             199        227                        581        689     108
            5768        5410          358            2812       3245       -433            8580       8655
             672         451          221             324        202        122             997        653     344
             920         665          255             431        315        116            1351        980     371
             '25         120          115                                                   302        177     125
             320         180          140                                                   399        265     134
            1922        3148         1226            1243       1821        578            3166       4969    1803
            1086         893          193             526        445                       1612       1338     274
             189         133                                                                286        204
             159         137                                                                237        199
            2649        2772          1'2            1280       1098        182            3929       3870
            1032        1026                          521        372        149            1553       1398     155
             497         564          -67             293        241                        791        805
             476         515                          260        222                        737        737
             503         624          121             315        221                        817        845
             695         839          144             389        284        105            1084       11'2
             162         242          -80             104                                   265        319
                         811          151             488        410                       1450       1221     229
            1435        1322          113             689        685                       2124       2007     117
            2'22        2124          108             900        996                       3131       3120
            1011         774          '27             431        346                       1442       1120     322
             291         497          206             193        179                        484        676     192
            1024        1373          349             507        462                       1531       1835     304
             1'2         113                                                                196        173
             308         293                          159        101                        467        394
             170         175                                                                268        264
             215         165                          106                                   320        228
            1976        1547          429             976        778        198            2952       '225     627
             222         204                          117                                   339        295
            5271        3517         1754            2007       2159        152            7278       5676    1602
            1096         860          '26             543        412        131            1639       1272     367
             109         142                                                                175        199
            2343        2317                         1067        927        140           3409        3244     165
             568         560                         317         198        119            885         758     127
             531         484                         254         262                       785         746
            242         3269          787            1238       1573        335           3720        4842    1122
             208         250          -42             104        122                       312         372
             494         529                                     184                       758         713
             100         131                                                                162        180
             832         865                          421        341                       1254       1206
            3187        2480          707            1628       1110        518            4815       3590    1225
             248         119          129             121                                   369        197     172
                                                                                            138        121
            1050         666          384            572         401        171            1622       1067     555
             834         742                         447         373                       1281       1115     166
             256         427          171             163        180                        419        607     188
            1016         931                         469         406                       1486       1337     149
                                                                                            136
Outlying     399         134          265            338         110        228             737        244     493
Other        896                     896                                                    938                938
Total      51104       47582        3522         24670         22948       1722           75774      70530    5244
Appendix 7: Ratio of Part A and Part B contributions to disbursements by state ,   1985


State      Part A     Part B         Total

                            1.0
                                         5.51


               1.07
               1.49         1.60         1.53
               1.38         1.37         1.38
               1.96         1.7          1.70
               1.78                      1.51

               1.22         1.8          1.20
               1.42         137          1.40
               1.6          1.27         1.9
                            1.7          1.02
               1.01         1.40         1.11
                            1.22
                            1.7          1.00
                            1.42
                            1.37
                            1.35
               1.9          1.9          1.9
               1.09         1.01         1.06
               1.05                      1.00
               131          1.24         1.29
               0.59         1.08
                            1.0
               1.09         1.22        1.3
               1.05         1.57        1.9
                            1.0         1.01
NtI€           1.30         1.68        1.41
               1.28         1.25        1.27
               1.09         1.29        1.5
               1.50                     1.28
               1.27         1.32        1.29
                            1.7
               1.01         1.5         1.05
               1.01         1.60        1.7
               1.0                      1.05


                           1.44         1.06
                           1.7
                           1.24         1.04
               1.28        1.47         134
                           1.56         1.87
               1.03        1.46         1.4
               1.58        1.43         1.52
               1.2         1.20         1.5
               1.09        1.6          1.1
               1.53        1.95         1.66
Other
Outlying
Average        1.07        1.08         1.07
 Appendix 8: Part A and Part B contributions and disbursements per beneficiary by state , 1985 ($)

- State           Part A                                   Part B                                 Total
                  Contributed     Disbursed         Net Contributed        Disbursd        Net Contributed        Disbursed    Net
                         1185          1494         309              645        586                        1830       2080     250
                        10481          1771        8710             3992        855       3137            14474       2627    11847
                         1484          1596          112             740        826         -85            2225       2422      197
                         1067          1291         223              556        634                        1624       1925     301
                           2018        1893          125             984       1135        151             3002       3028
                           2286        1533         753             1101        687        415             3387       2220    1168
                           2160        1561         599             1011        739        272             3171       2300     871
                           3147        1608        1539              893        764        129             4040       2372    1668
                           4380       2467         1913             1095       1165                        5475       3632    1843
                            978       1602         -624              633        927        294             1611       2529     918
                           1705       1402          303              826        699        127             2531       2101     430
                           1922       1354          568              987        723                        2909       2076     832
                           1389       1200          189              691        543        148             2080        1744    337
                           1883       1971          -87              910        781        129             2793       2751
                           1516       1508                           766       547         219             2282       2055     228
                           1161       1317           156             685       563         122             1846        1879
                           1419       1535           116             776       662         114             2195       2196
                           104        1296          252              653       459         194             1697        1755
                           1534       1851          317              859       627         232             2392       2478      -85
                            976       1459                           625       464         161             1601       1924     323
                           2077       1752          326             1054                   169             3132       2637     495
                           1800       1659          142              865       859                         2665       2518     147
                           2014       1917                           812       899         -87            2826        2816
                           1879       1438          441              800       643         157            2679        2081     598
. MS                        871       1488         -617              578       536                         1449       2024     575
                           1424       1910         -46               706       643                        2130        2552    -423
 :MT                       1193       1097                           712       583         129             1904       1680     224
                           1385       1316                           713       454         259            2098        1770     328
. I4v                      1767       1814          -47             1010       923                        2777        2737
                           1774       1363          411              873       521         352            267         1884     763
                           1963       1537          426              970       773         197            2933        2310     623
                           1529       1408          121              808        628        181            2337        2036     301
                           2233       1490          743              850        914                       3083        2404     678
                           1449       1138          312              719        545        174            2168        1683     486
                           1195       1562          367              736        627        109            1930        2189     259
                           1706       1688                           777        675        102            243         2363     120
                           1392       1372                           776        485        291            2168        1857     311
                           1461       1331          130              699        720                       2160        2051     109
                           1395       1837         -442              696        884        188            2091        2721    -630
                           1438       1725          287              715        842        127            2153        2567    -414
                           1338       1434                           716        499        217            2054        1932     122
                           989        1294          305              615        484        131            1604        1778     174
                           1353       1407                           685      . 555        131            2039        1961
                           2041       1589          453             1043       711         332            3085        2300     785
                           1892        909          983              928       596         332            2819        1505    1315
                           1348       1313                           688       472         216            2036        1785     251
                           1711       1086          625              933       654         279            2644        1740     904
                           1607       1429          178              860       718         142            2468        2148     320
                            903       1508         -65               577       636          5':           1480        2144
                           1558       1427          131              719       622                        2277        2049     228€
                           2010       1310          701             1120       574         546            3130        188     1247€
 Outlying                  1317        442          875             1115       363         752            2432         805    1627€
 Other                     3894                    3894              186                   186            4080                4080
 Total                     1692       1576          117             817        760                        2509       2335      174
Appendix 9: Part A and Part B contributions and disbursements per population by state , 1985 ($)

     Populationl Part A                                  Part B                               Total
State (thousand) Contributed    Disbursed          Net Contributed      Disbursed        Net Contributed    Disbursed    Net

           4021           153         193          -40                                                236        268
            521          329                       274            125                                 455                372
           3161          185          199                                     103                     278        302
           2360          162          196                                                             246        292
-CA       26353          219          205                         107         123                     326        328
           3232          208          140                         100                                 308        202     106
           3175          290          209                         136                                 426        309     117
            626          375          192          183            106                                 482        283     199
            623          513          289          224            128        136                      641        425     216
          11367          169          277          108            109        160                      279        437     159
           5976          182          149                                                             270        224
           1050          180          127                                                             272        194
           1005          158          136                                                             236        198
          11539          230          240                         111                                 340        335
           5500          188          187                                                             282        254
           2873          173          196                         102                                 275        280
           248           195          210                         106                                 301        301
           3724          135          168                                                             219        227
                         155          187                                                             242        250
           1164          139          208          -69                                                228        274     -46
           4391          219          185                         111                                 330        278
           5823          246          227                         118        118                      365        345
           9088          246          234                                    110                      345        343
           4191          241          185                         103                                 344        267
           2613          111          190                                                             185        259
           5036          203          273          -69            101                                 304        364
            825          149          137                                                             238        210
           1605          192          183                                                             291        245
            939          181          186                         104                                 285        281
            998          215          165                         106                                 321        228
           7568          261          204                         129        103                      390        307
           1450          153          141                                                             234        203
          17767          297          198                         113        122                      410        319
           6258          175          137                                                             262        203
            685          159          207          -49                                                256        291
          10774          217          215                                                             316        301
           3302          172          170                                                                        230
                         198          180                                                             292        278
          11865          209          276                         104        133                      314        408
            967          215          259          -43            107        126                      323        385     -62
           3333          148          159                                                             227        214
            708          141          185                                                             229        2.')4
           4766          175          181                                                             263        253
          16382          195          151                                                             294        219
           1644          151                                                                                     120     105
            535          171          166                                                             258        226
           5704          184          117                         100                                 284        187
           4407          189          168                         101                                 291        253
           1936          132          221          -89                                                216        314
           4775          213          195                                                             311        280
            509          172          112                                                             268        161     107
Outlyingl 3282           122                                      103                                 225                150
Other3     4236          211                       211                                                222                222
Total    238736          214          199                         103                                 317        295
  1. u. s. Department of Commerce , Bureau of the Census. Statistical abstract of the United States , 1990. 1 10th ed. Washington , DC: U.€
  Government Printing Offce , 1990: 20. Table 26,€
. 2. U. S. Department of Commerce , Bureau of the Census. Estimates of the population of Puerto Rico and the outlying areas: 1980 to 1986.

  Current Population Reports , Series P- , No. 1009. Washington , DC: U. S. Government Printing Office , July 1987.€
  3. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States , 1987. 107th ed. Washington , DC: U.€
  Government Printing Offce , 1987: 9. Table 4.€
Appendix 10: Part A and Part B contributions and disbursements per employee by state , 1985 ($)

     Employees! Part A                                   Part B                               Total
State (thousand) Contributed    Disbursed         Net Contributed        Disbursed                           Disbursed
                                                                                        Net Contributed                  Net
            1803         341          430         -89             186          169                    526         598
.AK          253         678          115         564             258                   203           937         170    767
            1477         397         427                          198         221                     595         647
            1051         364         440                          190         216                     553         656
€r'€       l29                       418                          217         251                     663         669
                                                                                                                          102
            1720         391         262          129             188         117                     579         380    200
            1711         538         389          149             252         184                     790         573    217
             315         746         381          365             212         181                     957         562    395
            322          992         559          433             248                                 1241        823    418
           5338          360         590          230             233         341       108            593        931    338
           2865          379         312                          184         155                      563        467
            481          393         277           116            202         148                     594         424    170
            471          337         291                          167         132                     504         423
           5673          467         489                          226         194                     693         682
           2735          377         375                          191         136                     568         511
           1416          351         398           -47            207         170                     558         569
           1244          383         414                          209         178                     592         592
           1695         297          368                          186         130                     482         499
           1987         350          422                          196         143                     546         565
--E         552         293          438          145             188         139                     481         578
           2253         427          360                          217         182                     644         542    102
           3061         469          432                          225         224                     694        656
           4352         513                                       207         229                     719         717
           2234         453          346          106             193         155                     645        501     144
           1211         240          410          170             159         148                     400        558     159
           2472         414          555          141             205         187                     619        742     123
            405         303          279                          181         148                     484        427
            813         379          360                          195         124                     574        485
            509         335          344                          191.        175                     526        519
            537         400          307                          197         117                     597        425     172
           3853         513          402          111             253         202                     766        603     163
                        343          316                          181         141                     524        457
           8308         634          423          211             242         260                     876        683     193
           3106         353          277                          175         133                     528        410     118
            336         323          423                          199         170                     522        592
           5130         457          452                          208         181                     665        632
           1573         361          356                          201         126                     563        482
           1327         400          365                          192         197                     592        562
           5519         450          592          143             224         285       -61           674        877     203
            500         417          500          -83             207                                 624        744     120
           1563         316          338                          169         118                     485        456
             347        289          378          -89             179         141                     468        519
            2245        371          385                          188         152                     558        537
            8053        396          308                          202         138                     598        446     152
             730        339          163          176             166         107                     506        270     236
             277        330          321                          168         116                     498        437
            2872        365          232          134             199         140                     565        372     193
            2105        396          352                          212         177                                530
             765        334          558          224             214         235                     548        793     246
            2374        428          392                          198         171                     626        563
             253        346          225          121             193                                 539        324     214
Outlying2    837        477          160          317             404         131       272           880        292     589
Othe        2151        416                       416                                                 436                436
Total     118763        430          401                          208         193                     638        594
  1. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States, 1987. 107th ed. Washington , DC: U.
  Goernment Printing Offce , 1987: 377. Table 641.
1 2. U.
        S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States , 199. 1l0th ed. Washington , DC: U.
  Government Printing Offce, 1990: 820. Table 1420.
  Hiles G. Current employment report , March 1986. Tamuning, GU: Guam Department of Labor, Bureau of Labor Statistics , 1986: 3.
  Release #86-0.€
          I. Bureau of Labor Statistics. U. S. Virgin Islands economic indicators. St. Croix, VI: WSVI- , Channel 8 , 1988: 7.
  3. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States , 1990. llOth ed. Washington , DC: U.
  Government Printing Offce , 1990: 339. Table 552.
Appendix 11: Part A and Part B contributions and disbursements per gross state product ($ millon) by state , 1985 (percent)

        Gross state Part A                                 Part B                                Total
State    productl Contributed      Disbursed       Net Contributed         Disbursed      Net Contributed       Disbursed      Net
            51919           1.8            1.49       0.31                        059                    1.83                   -0.
            21237                                                   0.31                                 1.2
            48589           1.21           1.30      -0.                                   -0.           1.81           1.97    -0.
            299             1.28           1.54      -0.                                   -0.           1.94          2.30     -0.36
           49650            1.6            1.09                     0.57                   -0.           1.73          1.74     -0.
            56713           1.9                      0.39           0.57          0.36                   1.6            1.5
            6496            1.42           1.03      0.39                         0.49                                  1.51     0.57
            10966                          1.09       1.05                        0.52                                  1.61     1.4
            27185           1.8                       0.51                        0.31                   1.47                    0.49
           164340           1.7            1.92      -0.                           1.1     -0.           1.93                    1.0
            94121           1.5                                     0.56                                 1.71           1.42     0.29
            17994           1.05                     0.31           0.54          0.39                   1.59           1.3      0.45
            13027           1.22          1.05                                                           1.82          1.53      0.30
           198138           1.34          1.40       -0.                          0.55                   1.98          1.95
            80262           1.29          1.28                                                           1.93          1.74
            42100           1.8           1.34      -0.                                                  1.88          1.91     -0.
            40364           1.8           1.28      -0.                           0.55                   1.82          1.83     -0.
            51234                         1.22      -0.                                                  1.60          1.65     -0.
            79719                         1.05      -0.             0.49          0.36                   1.36          1.41     -0.
            15896           1.02          1.52      -0.50                                                1.67                   -0.34
            70580           1.36          1.5                                     0.58                                 1.73      0.32
           106148           1.5           1.25                                                                         1.89
           143719           155           1.48                                             -0.
            71183           1.42          1.09       0.33                         0.49                                 1.57      0.45
            30819                         1.61      -0.                           0.58                   1.57                   -0.
            79220           1.29          1.73      -0.                           0.58                   1.93          2.32     -0.38
            11543           1.06                                                  0.52                   1.70          1.50
            25639           1.20          1.4                                     0.39                   1.82          1.54
            17918                                   -0.             0.54          0.50                   1.50          1.47
            16585           1.29                                                  0.38                   1.93          1.37     0.56
           142302           1.39          1.09                                    0.55                                 1.63     0.44
            23887                                                   0.49          0.38                   1.42          1.23
           336071           1.57          1.05       0.52                                                              1.69     0.48
            93821          1.7                                      0.58          0.44                   1.75          1.36     0.39
            10725           1.01          1.32      -0.                           0.53                   1.64          1.86    -0.
           167645           1.40          1.38                                    0.55                                 1.94
            5082           1.2            1.0                                     0.39                   1.4           1.49     0.25
            38922          1.37           1.24                                             -0.                         1.92
           17299           1.43           1.89      -0.                                    -0.                                 -0.
            13961          1.49           1.9       -0.30                                  -0.                         2.66    -0.43
            41832          1.8            1.26      -0.                                                  1.81          1.70
             9297          1.08           1.41      -0.33                         0.53                   1.75          1.94    -0.
            67560          1.23           1.28      -0.                           0.50                   1.86          1.79
           307615          1.04                                     0.53          0.36                   1.57          1.7      0.40
            23172          1.07           0.51       0.56           0.52          0.34                   1.59
             7915          1.5            1.2                       0.59          0.40                   1.74          1.53
            95369          1.0                       0.40                         0.42                   1.70          1.2      0.58
            71756          1.6            1.03                                    0.52                   1.79          1.55     0.23
            23541          1.09           1.81      -0.                                    -0.           1.78          2.58
            72716          1.40           1.28                                    0.56                                 1.84    . 0.
            12777                         0.45                      0.38                                 1.07                   0.42
Outlying2 17534                                      1.51           1.93                    1.30                       1.9€
Othe        31100€
Total     4011980          1.27           1.9                                     0.57                   1.89          1.76€
1. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States, 1990. 110th ed. Washington , DC: U.
Government Printing Offce , 199: 433.
2. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States , 1990. 110th ed. Washington , DC: U.€
Government Printing Office, 1990: 820. Table 1420.€
Hutchersn IT. Annual economic revew and statistical abstract , 1989. Tamuning, GU: Guam Department of Commerce , Economic€
Research Center ,1989: 36. Table 12.€
    V.I. Bureau of Labor Statistics. U. S. Virgin Islands economic indicators. St. Croix, VI: WSVI- , Channel 8 , 1988: 2.
3. U. S. Department of Commerce , Bureau of the Census. Statistical abstract of the United States, 199. 110th ed. Washington , DC: U.
Goernment Printing Offce , 1990: 426. Table 691.
Appendix 12: Population , employees, and gross state product per beneficiary by state ,   1985€


State              Per beneficiary
                   Population Employees          Gross state product ($ thousand)

                                          3.5       1001
                           31.8          15.5      12972
                            8.0                     1231
                                                     836
                                          4.5       1739
                            11.0                    192
                             7.5                   1518
                             8.4                   1469
                             8.5          4.4      3726
                                                    836
                                          4.5      1478
                            10.                    1831
                             8.8€                  1141
                                                    140
                                                   1180
                                                    983
                                                   1203
                                          3.5      1064
                                          4.4      1759
                                          3.3       959
                             9.5                   1524
                             7.3                   1332
                                                   1297
                                                   1323
                                                    923
                                                   1102
                                                   1121
                                                   1152
                                          5.3      1857
                                          4.4      1370
                            7.5                    1414
                           10.€           4.5      1648
                            7.5           3.5      1423
                            8.3                    1241
                            7.5                    1180
                                                   1221
                                                   1245
                                                   1070
                                                    972
                                         3.5        964
                                                   1134
                                          3.4       918
                                                   1099
                           10.5                    1971
                           12.                     1770
                                                   1167
                            9.3                    1555
                            8.5                    1382
                                                    831
                            7.3                    1114
                           11.7                    2935
Outlying                   10.                      579
Other                      18.4                    1352
Total                                              1328
Appendix 13: Payroll tax and Part A general revenue contribution per beneficiary, population , employees, and gross state product by state€
1985€

State Per   beneficia             Per  ulation             Per em                    Per   ross state    roduct          ercent€
        OASDHI          General   OASDHI       General     OASDHI         General    OASDHI             General€
                        revenue                revenue                    revenue                       revenue€

            1078           107          139                      310                           1.08
            9593           888          301                      621
            1355           129          169                      362                           1.0
             981                        149                      334                           1.7
            1832           186          199                      405                           1.05
            2072           213          189                      354                           1.08
            1968           192          264                      490                           1.30
            2982           165          356                      707
            4168           212                                   944                           1.2
             874           104          151                      322                           1.05
            1556           149          166                      346                           1.05
            1735           187          162                      354
            1271           118          144                      308                           1.1
            1714           169          209                      425                           1.22
            1381           135          171                      344                           1.7
            1045           116          156                      316                           1.06
            1282           138          176                      346                           1.07
             935           109          121                      266
            1377           157          139                      314
             873           102          124                      262
            1875           202          198                      385                           1.23
            1642           158          225                      428                           1.23
            186            146          228                      476                           1.44
            1736           143          223                      418                           1.31
             780                        100                     215
            1303           121          186                     379                            1.8
            1070           123          134                     272
            1262           123          175                     346                            1.0
            1575           192          162                     298
            1614           160          196                     364                            1.8
            1781           183          237                     465                            1.26
            1383           145          138                     310
            2078           155          276.                    590                            1.46
            1325           124          160                     322                            1.07
            1066           128          142                     289
            1569           138          200                     420                            1.28
            1255           138          155                     326                            1.01
            1341           120          182                     368                            1.25
            1276           119          191                     411                            1.31
            1315           123          197                     381                            1.36
            1215           124          134                     287                            1.07
             889           100          127                     259
            1237           116          160                     339                            1.3
            1842           200          175                     357
            1719           173          137                     308
            1231           117          156                     301                            1.05
            1537           174          165                     328
            1450           157          171                     358                            1.05
             812                        119                     300
            1433           124          196                     394                            1.29
            1792           218          153                     308
Outlying    1100           217          102                     398                           1.90                0.37
bther       3894                        211                     416
Total       1545           147          195                     393                           1.6
